January 18, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Oversight Reviews – Postal Retail Unit – Gooding, ID
         (Report Number FF-MA-11-002)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) Group’s performance and conclusions at the Gooding Postal
Retail Unit (PRU), Gooding, ID (Project Number 11BR001FF002), performed November
18, 2010. The Gooding PRU is in the Salt Lake City District of the Western Area. At the
conclusion of FY 2011, we will summarize the results for all reviews in reports to Postal
Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission (PRC), which monitors and manages the Postal Service’s
compliance with SOX. The Postal Service established the Financial Control and Support
group to oversee the work of the FTC Group, which conducts tests of key financial
reporting controls. Senior Postal Service leaders use the results to identify and correct
internal control deficiencies and report the overall results to the PRC. We conducted this
oversight review in support of the independent accounting firm’s reliance on Postal
Service management’s testing, and overall audit opinions on the Postal Service’s
financial statements and internal controls over financial reporting.

The overall objective of our review was to evaluate whether the FTC Group properly
conducted and documented their examination of SOX financial reporting controls.

To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from November 2010 through
January 2011 in accordance with the Quality Standards for Inspections.1

1
  These standards were last issued by the President’s Council on Integrity and Efficiency (PCIE) and the Executive
Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –               FF-MA-11-002
 Postal Retail Unit – Gooding, ID



Conclusion

Based on our review of the FTC analysts’ work, we determined they properly conducted
and documented their examination of key SOX financial reporting controls. See
Appendix A for the results of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all our
FTC oversight reviews in a report to Postal Service Headquarters. Management will
have the opportunity to formally respond to the summary report at that time.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Juan Gonzalez, audit manager,
at 303-925-7425 or me at 510-285-9024.

 -Signed by Linda J. Libician-Welc
VERIFY authenticity with ApproveI

Linda Libician-Welch
Director, Field Financial – West

Attachment

cc:     Douglas G. Germer
        Corporate Audit and Response Management




                                                    2
                                         Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                             FF-MA-11-002
Postal Retail Unit – Gooding, ID



                                                APPENDIX A: REVIEW RESULTS

      Site Name                                                  Gooding PRU
      Finance Number-Unit ID                                     1536000473
      Location Type                                              PRU
      Scope Period Under Review                                  October 1, through November 18, 2010
      FTC Review Program Version and Date                        November 1, 2010
      FTC Team                                                   West




                                                                                                 Did FTC       Did the OIG
                                                                                  Did FTC       adequately      agree with
                                                                Did the OIG     perform the     document          FTC 's
                                                                   have            step in      their work     exceptions/
                                           Did FTC have         exceptions/     accordance      performed    findings (or no
                                            exceptions/        Findings that       to their       and the    exceptions/fin
 FTC Review       FTC Review Step/        findings in this     FTC did not?      program?        results?         dings)?
Step/Control #     Step Description       step? (Yes/No)       (Yes/No/NA)        (Yes/No)       (Yes/No)        (Yes/No)
   400001        109CA17, Unit                  No                  N/A              Yes            Yes             Yes
                 Reserve
                 Accountability
                 Examination
                 Procedures
   400002        109CA15, Individual            No                  N/A               Yes           Yes           Yes
                 Stamp Stock
                 Accountability
                 Examination
                 Procedures
   400003        123CA1, Bank                   No                  N/A               Yes           Yes           Yes
                 Deposit Procedures
   400004        109CA23, Close-out             No                  N/A               Yes           Yes           Yes
                 Procedures



                                                                        3
                                                             Restricted Information
